Memorandum from the Office of the Inspector General



February 19, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2008-12038 – DISTRIBUTOR REVIEW OF
MURPHY ELECTRIC POWER BOARD



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Andrea L. Williams, Senior Auditor, at
(865) 633-7375 or Jill M. Matthews, Deputy Assistant Inspector General, Audits and
Support, at (865) 633-7430. We appreciate the courtesy and cooperation received from
your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ALW:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John M. Hoskins, WT 4C-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3S 120
      John G. Trawick, WT 3D-K
      OIG File No. 2008-12038
        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                            

 

 

 

 

 

 
DISTRIBUTOR REVIEW
 

OF MURPHY ELECTRIC
POWER BOARD

 




 

 
 
 Audit Team                                Audit 2008-12038
Andrea Williams                            February 19, 2010
Laura Huffine
 
Melissa Neusel
Stephanie Simmons
Jennifer Torregiano
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 6

   CONTRACT COMPLIANCE ISSUES ............................................................... 7

   DISTRIBUTOR INTERNAL CONTROL ISSUES .............................................. 9

   TVA BILLING ISSUES ....................................................................................11

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 11

RECOMMENDATIONS ................................................................................ 12


APPENDICES
A. LETTER DATED DECEMBER 17, 2009, FROM LARRY KERNEA TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED DECEMBER 23, 2009, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN

C. MEMORANDUM DATED FEBRUARY 5, 2010, FROM JOHN G. TRAWICK
   TO ROBERT E. MARTIN




Audit 2008-12038
                      TVA Office of                                 February 2010
                      the Inspector                                 Audit 2008-12038
                      General                                       Murphy Electric Power Board
Why the OIG Did This Review                                         What the OIG Found
As part of the annual audit plan, the OIG performed a review of     Our review of Murphy found improvements were needed in the
the Murphy Electric Power Board (Murphy), which is a                areas of:
distributor for Tennessee Valley Authority (TVA) power based
                                                                       Customer Classification and Metering – We identified nine
in Murphy, North Carolina. Annual revenues from electric
                                                                        customers not classified correctly and two metering issues that
sales were approximately $12.9 million in fiscal year 2008.
                                                                        could impact (1) the proper reporting of electric sales and
TVA relies on distributors to self-report customer usage and
subsequently the amount owed to TVA (Schedule 1).                       (2) nondiscrimination in providing electricity to members of the
Customers are generally classified as residential, commercial,          same rate class. We were unable to estimate the monetary
manufacturing, and lighting. Within these classifications are           effect of all the classification and metering issues because in
various rate classes based on the customer type and usage.              some instances information was not available; however, for
                                                                        those where information was available, the monetary effect on
The objective of the review was to determine compliance with            Murphy and TVA would not be material.
key provisions of the power contract between TVA and Murphy            Contract Compliance – We identified two areas where
including (1) proper reporting of electricity sales by customer         Murphy was not meeting power contract requirements with
class to facilitate proper revenue recognition and billing by           TVA. Specifically, we found (1) the most recent joint cost study
TVA; (2) nondiscrimination in providing electricity to members          was not being used to charge rent by Murphy and (2) customer
of the same rate class; and (3) use of revenues, including any          contracts were not in place.
surplus, for approved purposes, such as operating expenses,
debt service, tax equivalent payments, and reasonable                  Internal Control Improvements – We identified three areas
reserves for renewals, replacements, and contingencies.                 where Murphy could strengthen internal controls. Specifically,
                                                                        we found improvements could be made in the (1) billing
                                                                        practices associated with well pumps, (2) accuracy of contract
What the OIG Recommends                                                 demand data entered in the system, and (3) enhancing of
                                                                        policies to improve the control environment.
We recommend the Group President, Strategy and External
                                                                    In addition, we found Murphy had more than enough cash on
Relations (S&ER), take action to ensure Murphy
                                                                    hand to cover planned capital projects and provide a cash reserve
(1) remediates classification and metering issues and institutes
                                                                    of about 12 percent. While TVA has established guidelines to
controls to prevent the issues from recurring; (2) complies with
                                                                    determine if a distributor has adequate cash reserves (cash ratio
contract provisions related to customer contracts and
                                                                    of 5 percent to 8 percent), TVA has not established guidelines to
application of joint cost studies; and (3) improves internal
controls. In addition, the Group President, S&ER, should            determine if a distributor's cash reserves are excessive.
(1) recover amounts incorrectly credited to Murphy and                 As of June 30, 2008, Murphy reported about $4.4 million in
(2) determine if other Competitive Index Rate (CIR) customers           cash and prepayments and planned capital expenditures of
with other distributors have been credited appropriately.               about $3 million which left cash reserves of about $1.4 million.
                                                                    We identified one instance where TVA incorrectly billed Murphy on
TVA and Murphy management generally agreed with and are
                                                                    the Schedule 1. Specifically, we noted TVA incorrectly credited
taking actions to address the recommendations. However,
                                                                    Murphy approximately $174,000 for the CIR credit. Finally, we
TVA management did not agree with the recommendation to
                                                                    identified certain opportunities to enhance TVA oversight of the
recover incorrectly credited CIR amounts from Murphy since
                                                                    distributors that were also identified in previous distributor audits.
the customer receiving the credit is no longer in business and
recovery through litigation is unlikely. In addition, TVA stated    TVA is in the process of addressing these findings which include
they have been focused on putting procedures and processes          the lack of: (1) guidance on when a demand meter is required for
in place to better assure that TVA rates and pricing programs       a distributor's customer, (2) criteria for evaluating when a
are implemented and carried out as intended in the future.          distributor's cash is excessive, and (3) guidance for distributors on
See Appendices for complete responses.                              what constitutes prudent expenditures.



For more information, contact Andrea L. Williams, Senior Auditor,
at (865) 633-7375 or Jill M. Matthews, Deputy Assistant Inspector
General, Audits and Support, at (865) 633-7430.




                                                                                                                             Page i
Office of the Inspector General                                                              Audit Report


BACKGROUND
The Murphy Electric Power Board (Murphy) is a distributor for Tennessee Valley
Authority (TVA) power based in Murphy, North Carolina, with revenues from
electric sales of approximately $12.9 million in fiscal year (FY) 2008. TVA relies
on distributors to report customer usage and subsequently the amount owed to
TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classifications are various
rate classes based on the customer type and usage. Table 1 shows the
customer mix for Murphy as of June 2008.

                          Murphy's Customer Mix as of June 2008

                                              Number of                                  Kilowatt
       Customer Classification                                       Revenue
                                              Customers                                 Hours Sold
    Residential 3,346                                                    $4,097,330     45,208,387
    General Power – 50 Kilowatt (kW)                    1,498             2,530,422 22,308,2    55
    and Under (Commercial)
    General Power – Over 50 kW                            110 6,044,77             9      81,962,470
    (Commercial or Manufacturing)
    Street and Athletic                                      3              38,459           439,696
    Outdoor Lighting1 0                                                    163,328         1,272,789
      Total                                             4,957          $12,874,318       151,191,597
                                                                                               Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Murphy, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
Murphy uses CSA systems to establish and set up new customers, input
customer meter information, perform the monthly billing process, and execute
customer account maintenance. Additionally, CSA provides Murphy with
management reporting (e.g., exception reports). All daily accounting and finance
responsibilities are handled by a general manager and accountant. A three-
member Board of Directors, which included two independent directors as well as
the General Manager2 during the audit period, provides oversight. Murphy does
not have any nonelectric business interests.




1
    This customer count represents those customers who only have Outdoor Lighting accounts with Murphy.
    Another 630 customers at June 30, 2008, had Outdoor Lighting accounts with Murphy as well as accounts
    for other services. The kilowatt hours sold include all kilowatt hours for all accounts.
2
    This person was the Murphy General Manager during our audit period; however, he is currently the
    Murphy Assistant General Manager.
Audit 2008-12038                                                                                  Page 1
Office of the Inspector General                                             Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Murphy including:

   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing electricity to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:

     Operating expenses;
     Debt service;
     Tax equivalent payments; and
     Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

   Obtained Murphy electronic billing information from CSA for the audit period.
    The information was not complete because CSA does not maintain historical
    information for inactive customers. We used the information available to
    generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
   Determined through inquiry and review of documentation whether Murphy
    had any nonelectric system-related business interests supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted February through May 2009. This performance audit
was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. In performing this audit, nothing came to our attention that
indicated noncompliance with applicable laws and regulations.
Audit 2008-12038                                                                   Page 2
Office of the Inspector General                                                                 Audit Report


FINDINGS
Our review of Murphy found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and
(2) nondiscrimination in providing electricity to members of the same rate class.
In addition, we found Murphy had more than enough cash on hand to cover
planned capital projects and provide a cash reserve of about 12 percent. While
TVA has established guidelines to determine if a distributor has adequate cash
reserves (cash ratio of 5 percent to 8 percent), TVA has not established
guidelines to determine if a distributor's cash reserves are excessive.

We also found improvements were needed to comply with contract provisions in
the areas of (1) customer contracts and (2) use of joint cost studies. We
identified three areas where Murphy's internal controls could be strengthened
including (1) billing practices associated with well pumps, (2) accuracy of contract
demand data entered in the system, and (3) enhancing policies to improve the
internal control environment. Finally, as we explain herein, we found one TVA
billing error as well as certain opportunities to enhance TVA oversight of the
distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
MEMBERS OF THE SAME RATE CLASS
As discussed below, we identified issues involving the classification of customers
and metering which could impact the proper reporting of electric sales. In
addition, these issues impact the ability to ensure nondiscrimination in providing
electricity to members of the same rate class.3 We were unable to estimate the
monetary effect of all the issues because in some instances information was not
available; however, for those where information was available, the monetary
effect on Murphy and TVA would not be material. Additionally, correction of
classification and metering issues is necessary to ensure all customers are
placed in the correct rate classification and treated like other customers with
similar circumstances.

Customer Classification Issues
We found nine customers that were not classified properly. One was a
commercial customer classified within the General Power Service (GSA)
Schedule of the General Power Rate. The GSA Schedule is divided into three




3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Murphy states that "power
    purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination among
    consumers of the same class and that no discriminatory rate, rebate, or other special concession will be
    made or given to any consumer, directly or indirectly."
Audit 2008-12038                                                                                     Page 3
Office of the Inspector General                                                                       Audit Report


parts—Part 1, Part 2, and Part 3—based on electric usage and demand,4 and
this customer was incorrectly assigned within the GSA Schedule. The remaining
eight customers were classified as residential although they should have been
classified under the GSA Schedule. The monetary impact of the classification
issues below would not be material to Murphy or TVA. Specifically, we noted:

     One customer was classified as GSA Part 15 instead of GSA Part 2.
      According to the General Power Rate - Schedule GSA, a customer should be
      classified as a GSA Part 2 if (1) usage is over 15,000 kilowatt hours (kWh),
      (2) metered demand exceeds 50 kW, or (3) contract demand is greater than
      50 kW. When a customer is moved to GSA Part 2, they must remain at that
      classification for 12 months after the usage meets the Part 2 criteria. This
      customer had metered demand of 50.12 kW in January 2008; therefore, the
      customer should have been classified as a GSA Part 2 for the next
      12 months. Based on information provided by billing agency personnel, the
      legacy CSA system used by Murphy does not change a customer from GSA
      Part 1 to GSA Part 2 based on metered demand until after demand exceeds
      50.499 kW rather than the 50 kW as stated by the GSA Part 2 rate schedule.
      Murphy personnel were not aware the threshold for metered demand in the
      CSA system was 50.499 kW rather than 50.01 kW.
     We found eight customers classified as residential customers that should
      have been classified as GSA Schedule customers. Specifically, we noted:
       Two customers were group homes. The Residential Rate Schedule
        applies "only to electric service to a single-family dwelling." According to
        TVA personnel, a group home is not considered a single-family dwelling;
        therefore, the Residential Rate Schedule does not apply. Group homes


4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as "the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW."
5
    Under the General Power Rate - Schedule GSA between Murphy and TVA, customers are classified
    based on the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
       highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
       monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
       billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
       (b) the customer's billing demand is less than 50 kW and its energy takings for any month during such
       period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer's currently effective contract demand or (b) its highest
       billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2008-12038                                                                                           Page 4
Office of the Inspector General                                                                  Audit Report


          should be classified using the appropriate GSA Schedule based on energy
          and demand takings.
       One customer was a cemetery which is a commercial operation. Murphy
        personnel reclassified the customer under the GSA Schedule when it was
        brought to their attention during our audit.
       Five customers with commercial names were classified inconsistently with
        other Murphy customers. According to Murphy personnel, a property has
        to be occupied by an individual tenant in order to be classified as a
        residence on the Murphy system. Based on Murphy's classification
        philosophy, properties in the names of landlords or properties that are
        rentals or temporary/transient housing where more than one tenant could
        occupy the property in a month should be classified using the appropriate
        GSA Schedule.

Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted the following two issues related to metering of customers at Murphy. We
were unable to estimate the monetary effect because in some instances meters
were not in place which would provide information to make the estimates. We
found:

     Fifteen customers classified as a GSA Part 2 had energy usage in excess of
      15,000 kWh but were not measured for demand. In addition, one of these
      customers had a contract on file at Murphy with contract demand of 168 kW.
      Under Part 2 of the GSA Schedule and the Wholesale rate schedule with
      TVA, there would be no effect on the revenues for TVA or the distributor
      unless the customer's demand exceeded 50 kW. Without demand meters in
      place or evidence indicating other circumstances exist which would prevent a
      customer from exceeding demand of 50 kW, we could not determine if any of
      these customers would have exceeded 50 kW.6  
     Two older meters that require the demand reading to be manually reset each
      month were not being reset by the meter readers. According to Murphy
      personnel, the meter readers did not think the demand would go over 50 kW,
      so the meters were not reset. If the meter is not reset each month and the
      current month's peak demand does not exceed the previous month's peak
      demand, the peak demand reading may not represent the customer's actual
      peak demand for the month. Although demand for these two customers did
      not exceed 50 kW and no additional charges were incurred, the meters did
      not report the actual demand peak for the customer each month. According
      to Murphy personnel, Murphy has five of these type meters that must be
      manually reset each month still in use.



6
    In response to a finding in a previous report, TVA indicated guidance will be issued to distributors to
    evaluate whether a demand meter is needed when usage reaches 25,000 kWh for a customer. Two of
    the fifteen customers' usage reached 25,000 kWh during the audit period.
Audit 2008-12038                                                                                       Page 5
Office of the Inspector General                                                                  Audit Report


USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. While TVA has established guidelines to
determine if a distributor has adequate cash reserves (cash ratio7 of 5 percent to
8 percent), TVA has not established guidelines to determine if a distributor's cash
reserves are excessive.8

We found Murphy had more than enough cash on hand to cover planned capital
projects and provide a cash reserve. As of June 30, 2008, Murphy reported
about $4.4 million in its cash and cash equivalent accounts, and the cash reserve
after planned capital projects was about 12.1 percent. Table 2 shows information
about plans for major capital expenditures obtained from Murphy's General
Manager and our review of Murphy's Board of Directors meeting minutes.

                           Murphy's Planned Capital Expenditures

                        Capital Expenditure Plans                                    Project Cost
Completion of Substation                                                                  $3,000,000


    Total Planned Capital Expenditures                                                    $3,000,000
                                                                                                Table 2

When compared to Murphy's capital expenditure plans for the foreseeable future,
the balance in Murphy's cash accounts was enough to pay for these items and
leave about $1.4 million as a reserve, as shown in Table 3. Table 3 also shows
Murphy's cash ratio percentage was about 37.7 percent before accounting for
planned capital expenditures and about 12.1 percent after accounting for them.

      Murphy's Cash Accounts Compared to Planned Capital Expenditures

                                     Cash and Cash
                                                       Planned Capital Reserve After Planned
                                    Equivalents Plus
                                                        Expenditures    Capital Expenditures
                                  Prepayment Account
FY 2008                                     $4,426,164      $3,000,000              $1,426,164
Cash Ratio Percentage                          37.68%                                  12.14%
                                                                                                    Table 3

7
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash equivalents
                               Total Variable Expenses (Operations and Maintenance + Purchased Power)
8
    In separate reports issued on other distributors in May 2009, we recommended TVA develop criteria to be
    used in determining whether a distributor's cash reserves are excessive and incorporate the criteria into
    the rate setting process. TVA management agreed and will make recommendations to the TVA Board
    that additional financial metrics be employed for purposes of administering the resale rate provisions in
    Section 5 of the wholesale power contracts. The need to consider cash reserves will be included in TVA
    management's recommendations to the Board. A change in the current guidelines to include these
    additional financial metrics requires Board action. Target completion date is December 2010.
Audit 2008-12038                                                                                      Page 6
Office of the Inspector General                                                                    Audit Report


Discussions with Murphy's management indicated the operating philosophy of
the Board of Directors and management was to use a conservative, generally
debt-averse approach. According to TVA records, over the past five years,
Murphy was approved for rate increases in 2005, 2006, and 2008. Table 4
shows the rate increases received by Murphy, the cash position, and cash ratio
at June 30 prior to the effective date of the rate increase.

               Murphy's Rate Increases, Cash Position, and Cash Ratio

                                                                         Rate Increase9
               Cash on Hand
             Equivalent to an 8%         Cash and Cash
                                                               Additional         Effective
                 Cash Ratio               Equivalents10                   Percent
                                                               Revenue              Date
                                         and Cash Ratio
                                            $4,458,920
                    $803,745                                    $174,000 1.61%           10/1/2005
                                           (CR - 44.38%)
                                            $4,342,825
                    $886,383                                    $283,771 2.61%            7/1/2006
                                           (CR - 39.20%)
                                            $4,312,962
                    $914,164               (CR - 37.74%)        $351,272 2.81%           04/1/2008
                                                                                           Table 4

Coupled with this debt-averse philosophy, distributors consider cash reserves as
a hedge against the risks of unforeseen costs from an aging infrastructure
(e.g., equipment failure), potential loss of revenue from the economic impact on
commercial and industrial customers, and unpredictable weather.

Examples of weather events11 TVA distributors have incurred include damage
from (1) the recent January 27, 2009, ice storm in Kentucky and Tennessee
where about 130,000 of TVA distributor consumers lost their electricity and
(2) tornados and the impact of tropical storms, such as the 2005 damage to
Mississippi systems resulting from hurricane Katrina.

CONTRACT COMPLIANCE ISSUES

We noted two areas related to customer contracts where improvements could be
made by Murphy. Specifically, we found (1) the most recent joint cost study
performed by TVA was not being used by Murphy to charge rent to the City of
Murphy and (2) required contracts for Murphy customers with demand greater
than 50 kW were not in place for all customers. Below is further discussion on
these items.

9
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
     passed through by the distributor to the customer.
10
     The cash and cash equivalents and cash ratio were computed based on information from Murphy's
     annual report as of June 30 prior to the effective date of the rate increase.
11
     After a severe weather event, utilities launch massive and costly round-the-clock restoration efforts. In
     addition to costs for miles of new wire, new poles, new transformers, and its own crews, utilities often
     have to pick up the bill for other utility crews providing assistance in the restoration effort.
Audit 2008-12038                                                                                         Page 7
Office of the Inspector General                                                                     Audit Report


Allocation of Joint Costs
We found Murphy did not apply the allocations from the 2005 TVA joint cost
study when charging rent on the portion of Murphy's building occupied by the City
of Murphy. Under the power contract, the distributor is allowed to "use property
and personnel jointly for the electric system and other operations, subject to
agreement between Municipality and TVA as to appropriate allocations." Murphy
rents a portion of their building to the City of Murphy for use as City Hall. The
monthly rent of $1,672 being charged to the City of Murphy is based on a joint
cost study performed by TVA in 1991. A more recent joint cost study performed
by TVA for Murphy in 2005 determined the monthly rent should be $3,148.35.
According to Murphy personnel, the rent increase determined in the 2005 joint
cost study was not applied because the City of Murphy is furnishing Murphy with
1,750 square feet of dry storage. The City of Murphy occupies 7,364 square feet
of Murphy's building.

Customer Contracts When Demand Exceeds 50 kW
Under Murphy's contract with TVA, all customers that exceed 50 kW monthly are
required to sign a formal contract. We randomly selected 36 customer accounts
with billed demand in excess of 50 kW and requested the contract for each
customer. Of these 36, Murphy did not have contracts for 25 customer accounts.
Of the 25 customer accounts without contracts, 1 customer was classified as a
GSA Part 3 and 1 was classified under the Manufacturing Service Rate –
Schedule MSB.12 We subsequently received a copy of the MSB customer's
contract from TVA. Each customer contract includes a contract demand which is
used in placing the customer in the correct classification. For example, a
customer becomes a GSA Part 2 when either (1) the customer's currently
effective contract demand or its highest billing demand during the latest 12 month
period is more than 50 kW but less than 1,000 kW, or (2) the customer's billing
demand is less than 50 kW and its energy takings for any month during such
period exceed 15,000 kWh. Contract demand is also used in calculating the
customer's billed demand and minimum bill. TVA management, in previous
reports, indicated the threshold of 50 kW for requiring customer contracts was
too low. TVA management will recommend to the Board that a new and higher
threshold be established as part of the rate change process with the
distributors.13 In further discussions with TVA personnel, the proposed threshold
for requiring a contract is 1 megawatt (MW) which would include customers
classified as GSA Part 3 or higher. Our sample included one GSA
Part 3 customer exceeding the 1 MW threshold without a contract.




12
     Under the Manufacturing Service Rate – Schedule MSB between Murphy and TVA, customers are
     classified as MSB where (a) a customer's currently effective contract demand is greater than 5,000 kW
     but not more than 15,000 kW and (b) the major use of electricity is for activities conducted at the delivery
     point serving that customer which are classified with a 2-digit Standard Industrial Classification Code
     between 20 and 39, inclusive.
13
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by October 2010.
Audit 2008-12038                                                                                          Page 8
Office of the Inspector General                                          Audit Report


DISTRIBUTOR INTERNAL CONTROL ISSUES
We identified three areas where Murphy's internal controls could be
strengthened. Specifically, we found improvements could be made with respect
to (1) billing practices associated with well pumps, (2) accuracy of contract
demand data entered in the system, and (3) enhancing policies to improve the
control environment.

Billing Practices
Murphy's billing practices regarding well pumps need to be improved. Murphy
(1) did not have documentation supporting the retail rates for well pumps
previously classified as Drainage Pump services, (2) gave customers with well
pumps a credit to their customer charge that is not stated as allowed under the
rate schedule, and (3) charged one customer the wrong customer charge.
Specifically, we found:

   No documentation supporting the retail rates for well pumps previously
    classified as Drainage Pump services in Murphy's billing system. Retail rates
    are entered into the billing system based on rate schedules included as part
    of the power contract. Murphy did not have a rate schedule for Drainage
    Pump services included in its power contract with TVA; however, Murphy
    classified well pumps under the Drainage Pump rate schedule until July 2007
    when well pumps were reclassified to GSA Part 1. Since there was no
    documentation supporting the retail rates for Drainage Pump services before
    July 2007, we could not verify the correct rates were entered into the billing
    system for these customers prior to July 2007.
   Customers with well pumps were given an $11 credit to their monthly GSA
    Part 1 customer charge. This credit was given to customers to reduce the
    customer charge when well pumps were converted from the Drainage Pump
    Rate Schedule to General Power Rate – GSA Schedule as Part 1 customers.
    According to TVA personnel, the credit to the customer charge was supposed
    to be temporary; however, the credit was never phased out by Murphy.
    Murphy appears to apply the credit consistently to all well pump customers,
    including new well pump customers. The General Power Rate – GSA
    Schedule allows for adjustments to be made to the base energy and demand
    charges in accordance with the current Adjustment Addendum issued by TVA
    but does not state adjustments may be made to the customer charge.
   One customer was charged an additional $11 on their residential bill each
    month from January 2008 through June 2008. According to Murphy
    personnel, this customer has a residential meter as well as a well pump
    classified as GSA Part 1. The customer received the $11 credit to the GSA
    Part 1 customer charge all well pump customers receive, but $11 was
    erroneously added to the customer's residential customer charge. The Office
    Manager stated Murphy thought the error had been corrected and the
    customer bill had been adjusted; however, based on the results of our testing,
    Murphy personnel indicated the customer is owed $66.

Audit 2008-12038                                                              Page 9
Office of the Inspector General                                                                  Audit Report


Contract Demand in Billing Agency System
We noted two issues related to entering contract demand in the billing system.
Specifically, while performing our review of customers with demand in excess of
50 kW (see "Customer Contracts When Demand Exceeds 50 kW" on page 8),
we noted (1) ten customers with a contract did not have contract demand entered
into the system, and (2) one GSA Part 3 customer did not have a contract on file
but had a contract demand amount entered in the billing system. Contract
demand should be entered into the billing system based on the agreed-upon
contract amount to ensure proper calculation of the customer's bill.

Policy Enhancement to Improve Control Environment
We noted there were no formal policies at Murphy over expenditures.
Formalizing policies is a prudent business practice that will help the distributor
ensure expenditures are properly controlled and are used for electric system
purposes. Specifically, we noted enhancing policies would be beneficial in
several areas, including:

     Use of Petty Cash – The petty cash fund was established to provide customer
      refunds of deposits; however, we found the petty cash fund was used for
      other purposes including (1) general operating and maintenance expenses,
      (2) travel per diem, and (3) meals and entertainment expenses. Meals and
      entertainment expenses included frequent in-office meals as well as
      restaurant visits by front office personnel.14
 Contributions – We noted Murphy made contributions to various organizations
   or individuals by making a direct cash contribution or a direct payment to a
   vendor for an event. However, Murphy does not have written guidance for
   (1) the types of organizations eligible for contributions, (2) approval
   levels/limits for contributions, and (3) handling approvals for contributions
   when Murphy personnel are also affiliated with the receiving organization to
   prevent the perception of a conflict of interest. For example, contributions in-
   kind of over $11,000 were made to the community college where Murphy
   directly paid a vendor for a portion of an event in lieu of a cash donation. A
   person in Murphy management was also on the college's board of directors.
   Other contributions were to (1) other civic organizations in smaller amounts
   and (2) individuals, specifically to members of the Murphy police force and
   scholarship recipients. According to Murphy personnel, contributions to each
   member of the police force were provided for helping Murphy by directing
   traffic when necessary during the year.
 Other Benefits – We noted employees received benefits including allowances
   for yearly home telephone service for employees as well as an annual
   clothing allowance for front office personnel. According to Murphy personnel,
   the phone service is paid for each employee, including office personnel, so
   employees may be contacted at home in the event of an emergency. Murphy


14
     Four employees make up the front office personnel, including two cashiers, the accountant, and office
     manager.
Audit 2008-12038                                                                                     Page 10
Office of the Inspector General                                                               Audit Report


      personnel also stated the front office personnel receive an annual clothing
      allowance since the service personnel15 are provided uniforms by Murphy.
 Travel – We noted employee travel was paid for in multiple ways, and policies
   did not exist on approval of travel, travel expense limits (i.e., a per diem
   amount or reimbursement for actual expenses up to a daily limit, whether
   overnight stay is required, etc.), and allowable methods for payment of
   expenses, such as using a Murphy credit card, reimbursed from petty cash, or
   through an employee reimbursement process.

TVA BILLING ISSUES
We found one instance where TVA incorrectly billed Murphy on the monthly
Schedule 1s. Specifically, we found the Competitive Index Rate (CIR) was
incorrectly calculated for the Schedule 1s during the audit period. According to
the contract between TVA and Murphy, the retail rates used in calculating the
CIR credit were to be changed in line with the rate changes of competing system
Nantahala Power and Light (NP&L). However, Murphy's contract with the end-
use MSB customer provided fixed retail rates for a five-year period regardless of
rate changes made by NP&L.

In May 2006, NP&L increased rates. TVA knew of the rate change and that
TVA's contract with Murphy called for an upward adjustment in the rates used in
the CIR. While Murphy could not increase the retail rate charged to the
customer, TVA should have increased the rates used in the CIR credit calculation
at that time. However, TVA decided at that time not to do so because (1) the
inconsistencies between the wholesale and retail contracts may have resulted
from poor communications between TVA and Murphy about program
requirements, and (2) TVA customer service personnel had signed the retail
contract between Murphy and the MSB customer. While the signatures reflected
approval to only one section of the contract and not of the contract in its entirety,
TVA took the position that the signatures could compromise its legal position in
the event of litigation. If the rates had been adjusted in accordance with the
wholesale contract provisions, TVA would have reduced the amount credited to
Murphy by approximately $174,000 during the audit period. The position TVA
took on this issue in 2006 would likely compromise its ability to pursue recovery
of the $174,000 at this time. According to Murphy personnel, the MSB customer
left Murphy in 2008.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of this distributor; however,
the issues noted for this distributor were the same as those reported in previous
Office of the Inspector General (OIG) distributor reports. Specifically, we noted
TVA has not:


15
     Service personnel provide installation and maintenance for the Murphy electric system.
Audit 2008-12038                                                                                 Page 11
Office of the Inspector General                                                Audit Report


    Provided adequate guidance on when a demand meter is required,
    Provided definitive guidance for distributors on what constitutes prudent
     expenditures, and
    Defined criteria for evaluating when a distributor's cash is excessive.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA's planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.


RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations (S&ER),
work with Murphy to improve compliance with the contract and/or strengthen
internal controls. Specifically, Murphy should:

1.   Work with the billing agency to ensure that the software system appropriately
     classifies customers when demand is greater than 50 kW.

     Murphy's Response – Murphy agreed with the recommendation and has
     contacted the billing agency to resolve the issue. See Appendix A for
     Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy was in the process of addressing this issue with the
     billing agency. See Appendix B for TVA's complete response.

Auditor's          Response – The OIG concurs with the actions taken.

2.   Develop controls to properly classify group homes and consistently classify
     properties that are not in an individual tenant's name.

     Murphy's Response – Murphy agreed with the recommendation and has
     reclassified the properties identified in the review. Murphy also stated the
     criteria for classifying properties have been defined and training provided to
     employees. See Appendix A for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy had resolved the classification issues identified in the
     review. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.




Audit 2008-12038                                                                  Page 12
Office of the Inspector General                                         Audit Report


3.   Install demand meters for customers with contract demand but no demand
     meter.

     Murphy's Response – Murphy agreed with the recommendation and stated
     the customer identified in the review was mistakenly assigned a contract
     demand. Murphy stated procedures for assigning contract demand are
     being reviewed. Murphy also stated employees were working with the billing
     agency to review all contract demands in the billing system. See Appendix A
     for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy was in the process of resolving contract demand issues.
     See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken.

4.   Review the customers with usage greater than 15,000 kWh and install
     demand meters, if needed.

     Murphy's Response – Murphy agreed with the recommendation and stated
     employee refresher training was provided for the calculation and field
     monitoring of accounts. See Appendix A for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated TVA would encourage Murphy to develop procedures to review
     accounts. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

5.   Implement a procedure to (1) identify and document those customers that
     have circumstances (i.e., maximum load for the installed electrical
     configuration) which would never allow the customer to reach the 50 kW
     threshold and (2) routinely monitor demand or place demand meters at
     customer service addresses where usage could potentially reach the
     demand threshold.

     Murphy's Response – Murphy agreed with the recommendation and stated
     employee refresher training was provided for the calculation and field
     monitoring of accounts. In addition, Murphy requested additional exception
     reporting from the billing agency to identify customers with over 15,000 kWh
     and no reported demand to be used in monitoring those accounts. Murphy
     also stated demand meters were installed for all customers nearing the
     50 kW threshold. See Appendix A for Murphy's complete response.




Audit 2008-12038                                                           Page 13
Office of the Inspector General                                           Audit Report


     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy was in the process of installing demand meters for
     customers nearing the 50 kW threshold. In addition, TVA management
     stated guidance will be provided to distributors to advise that customers be
     evaluated for demand meters once the usage reaches 25,000 kWh. See
     Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

6.   Implement a procedure to ensure all meters are manually reset each month.

     Murphy's Response – Murphy agreed with the recommendation and stated
     meters are now being manually reset each month. See Appendix A for
     Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy is now manually resetting the demand reading on all
     meters each month. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

7.   Use the most current joint cost study in determining rent charged to the City
     of Murphy or obtain TVA approval for deviations.

     Murphy's Response – Murphy agreed with the recommendation and stated
     the most current joint cost study is now being used to charge rent. See
     Appendix A for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy is using the joint cost study performed in October 2009 to
     charge rent. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

8.   Obtain customer contracts for those with demand exceeding 1 MW.

     Murphy's Response – Murphy agreed with the recommendation and stated
     it is in the process of obtaining a contract from the customer with more than
     1 MW of demand identified in the review. See Appendix A for Murphy's
     complete response.




Audit 2008-12038                                                             Page 14
Office of the Inspector General                                           Audit Report


     TVA Management's Comments – TVA agreed with our recommendation
     and stated TVA management will recommend to the Board to revise the
     threshold for requiring customer contracts to 1 MW. The target completion
     date for this revision will coincide with the wholesale rate change expected to
     be in place by October 2010. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken.

9.   Review all GSA Part 1 customers with well pumps and ensure all are
     charged the customer charge set forth in the rate schedule.

     Murphy's Response – Murphy agreed with the recommendation and stated
     well pump customers have been notified the credit to the customer charge
     will end March 2010. See Appendix A for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated the distributor should charge well pump customers according to
     the rate schedule. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

10. Implement a process to ensure all customers with contracts have the
    appropriate contract demand entered into the billing system, and the contract
    demand in the system agrees with the customer's contract.

     Murphy's Response – Murphy agreed with the recommendation and stated
     a filing process was implemented to ensure new customer contracts are
     received and contract demand is accurately entered into the billing system.
     See Appendix A for Murphy's complete response.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated Murphy is working to ensure contract demand is accurately
     entered into the billing system. See Appendix B for TVA's complete
     response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

11. Enhance policies to improve internal controls over expenditures including the
    use of petty cash, contributions, employee benefits, and employee travel.

     Murphy's Response – Murphy agreed with the recommendation and stated
     an employee handbook addressing these issues is in development. See
     Appendix A for Murphy's complete response.



Audit 2008-12038                                                             Page 15
Office of the Inspector General                                           Audit Report


     TVA Management's Comments – TVA agreed with our recommendation
     and stated that TVA will rely on Murphy and its independent auditor to
     ensure internal controls are developed for expenditures. See Appendix B for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken.

The Group President, S&ER, should:

12. Review the CIR credit and recover any amounts incorrectly credited to the
    distributor.

     TVA Management's Comments – TVA stated they evaluated recovery
     mechanisms; however, recovery of the amount was not possible because
     the customer receiving the credit is no longer in business. In addition, TVA
     stated Murphy did not agree the CIR was subject to adjustment due to
     (1) inconsistencies in TVA communications with Murphy about CIR program
     requirements and (2) approval by TVA representatives, after the wholesale
     contract was in place, of a retail contract with additional language providing
     for no adjustments. TVA also stated it was unlikely litigation to recover the
     incorrectly credited CIR amount would be successful. TVA has been
     focused on putting procedures and processes in place to better assure TVA
     rates and pricing programs are implemented and carried out as intended in
     the future. See Appendices B and C for TVA's complete response.

     Auditor's Response – The OIG concurs with TVA's stated focus on putting
     procedures and processes in place to better assure the rates and pricing
     programs are implemented as intended in the future. No further action is
     necessary.

     We amended the TVA Billing Issue section of this report to provide additional
     information on the circumstances surrounding the decision by TVA personnel
     in 2006 not to pursue rate changes in the calculation of the CIR credit.

13. Determine if other CIR customers with other distributors have been credited
    appropriately.

     TVA Management's Comments – TVA agreed with our recommendation
     and stated contracts with CIR customers were reviewed in FY 2009 to
     determine if charges were correctly applied. Any necessary adjustments
     were made at that time. In addition, TVA staff plan to review customers with
     CIR contracts annually to ensure charges are being applied correctly. See
     Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.


Audit 2008-12038                                                             Page 16
APPENDIX A
 Page 1 of 3
APPENDIX A
 Page 2 of 3
APPENDIX A
 Page 3 of 3
APPENDIX B
 Page 2 of 5
APPENDIX B
 Page 3 of 5
APPENDIX B
 Page 4 of 5
APPENDIX B
 Page 5 of 5
APPENDIX C
 Page 2 of 2
